                             SOCIAL SECURITY
                             Office of the Inspector General


                                   September 17, 2010


The Honorable Charles E. Grassley
Ranking Member
Senate Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:


The enclosed report addresses your August 23, 2010 letter asking that we determine
the extent to which political appointees are made aware of Freedom of Information Act
(FOIA) requests and have a role in request reviews or decision-making. Thank you for
bringing your concerns to my attention. As you know, my office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs.

The enclosed report highlights various facts pertaining to the issues raised in your letter.
Specifically, we reviewed the Social Security Administration’s (SSA) FOIA process, and
interviewed FOIA analysts and coordinators to determine whether political appointees
are made aware of information requests and if so, to what extent. We also reviewed
pending, approved, and denied requests to determine whether political appointees were
involved in the final decision for FOIA requests received.

To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency. I have also sent a similar letter to Ranking Member
Darrel Issa of the House Committee on Oversight and Government Reform. If you have
any questions concerning this matter, please call me or have your staff contact Misha
Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                 Sincerely,



                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General

Enclosure

cc:
Michael J. Astrue
              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
                             SOCIAL SECURITY
                             Office of the Inspector General


                                   September 17, 2010


The Honorable Darrel Issa
Ranking Member
Committee on Oversight and Government Reform
House of Representatives
Washington, D.C. 20515

Dear Mr. Issa:

The enclosed report addresses your August 23, 2010 letter asking that we determine
the extent to which political appointees are made aware of Freedom of Information Act
(FOIA) requests and have a role in request reviews or decision-making. Thank you for
bringing your concerns to my attention. As you know, my office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs.

The enclosed report highlights various facts pertaining to the issues raised in your letter.
Specifically, we reviewed the Social Security Administration’s (SSA) FOIA process, and
interviewed FOIA analysts and coordinators to determine whether political appointees
are made aware of information requests and if so, to what extent. We also reviewed
pending, approved, and denied requests to determine whether political appointees were
involved in the final decision for FOIA requests received.

To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency. I have also sent a similar letter to Ranking Member
Charles E. Grassley of the Senate Committee on Finance. If you have any questions
concerning this matter, please call me or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                 Sincerely,




                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General

Enclosure

cc:
Michael J. Astrue
              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
Political Appointees’ Role in the Social
 Security Administration’s Freedom of
        Information Act Requests

             A-15-10-20185




             SEPTEMBER 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
Our objective was to determine the extent to which political appointees are made aware
of Freedom of Information Act (FOIA) requests and have a role in request reviews or
decision-making.

BACKGROUND
FOIA

In 1966, Congress passed the Freedom of Information Act (hereinafter FOIA or the
Act), 1 in response to the public's desire to know more about Government activities.
FOIA allows the public to request records from various Federal agencies. The public
does not include Federal agencies, courts, or the Congress, but does include State
agencies, individuals, corporations, and most other parties. 2 The Act requires that each
Federal agency decide, within 20 working days after receiving a request for records,
whether to comply with the request and immediately notify the requestor of the
determination, why the determination was made, and of the person’s right to appeal to
the head of the agency any adverse determination. 3 The Act requires that the Social
Security Administration (SSA) disclose any information in its records upon receiving a
written request from the public, except for those records that are protected from
disclosure. 4

SSA’s Processing of FOIA Requests

The SSA’s Office of Privacy and Disclosure (OPD) in the Office of the General Counsel
(OGC) directs FOIA activities within SSA, which include

       • developing FOIA policies and procedures,

       • establishing national guidelines for handling FOIA requests,

       • publishing the Annual Report on FOIA activities,




1
    Public Law Number (Pub. L. No.) 89-487, 5 United States Code (U.S.C.) § 552.
2
    20 Code of Federal Regulations (C.F.R.) § 401.130.
3
    5 U.S.C. § 552(a)(6).
4
    There are nine exemptions to the FOIA. 5 U.S.C. § 552(b).

Political Appointees’ Role in SSA’s FOIA Requests                                       1
      • reviewing FOIA and Privacy Act 5 requests and appeals to determine the proper
        disclosure of records, and

      • responding to FOIA requests.

The Deputy Executive Director of OPD is the SSA Freedom of Information Officer. Only
the Deputy Executive Director, or his or her designee, may determine whether to
release or withhold SSA records, including records in field offices and installations, in
response to FOIA requests, except as otherwise provided by regulation. 6 Under SSA’s
regulations, an appeal of a denial of a FOIA request should be sent to the
Commissioner or his designee. 7 The Commissioner has delegated this authority to the
General Counsel, who re-delegated it to the Executive Director of OPD. 8

The Executive Director and Deputy Executive Director of OPD report to the General
Counsel of SSA. The General Counsel of SSA is a political appointee; however, he is
currently serving overseas in another capacity. The individual acting for the General
Counsel of SSA is not a political appointee. Furthermore, the Executive Director and
Deputy Executive Director of OPD are not political appointees. There are no other
political appointees in OGC.

In Fiscal Year (FY) 2009, SSA processed 31,551 FOIA requests. Of those,
26,344 requests were fully granted, 3,085 were partially granted, 1,447 were denied
based on an exemption, 9 and 675 were denied on a basis other than an exemption. 10
SSA FOIA requests are processed in SSA’s Electronic Freedom of Information Act
(eFOIA) system by either OPD or the Division of Earning Records Operations (DERO).
In addition, staff in the Division of Direct Service Operations (DDSO) has been trained
to assist in processing FOIA requests when backlogs become unmanageable. They
5
  5 U.S.C. § 552a. SSA’s regulations on handling FOIA may be found at 20 C.F.R. Part 402, and those
dealing with the Privacy Act are located at 20 C.F.R. Part 401. “The purpose of the Privacy Act is to
balance the government’s need to maintain information about individuals with the rights of individuals to
be protected against unwarranted invasions of their personal privacy stemming from federal agencies’
collection, maintenance, use, and disclosure of personal information about them.” SSA fulfills its
administrative and program responsibilities, and responsibilities for disclosing records the general public
is entitled to have under FOIA.
6
    20 C.F.R. § 402.125
7
    20 C.F.R. § 402.200
8
 The OGC delegation is dated December 26, 2002. Before OPD existed in OGC, its predecessor
organization had a similar delegation dating from September 29, 1997.
9
  FOIA exemptions are specific aspects of data that are not granted to a requestor. In general, FOIA
permits an agency to withhold classified information, internal personnel rules, information that is
prohibited by statute from disclosure, trade secrets and confidential financial information, deliberative and
privileged documents, personal information about living individuals that would constitute an unwarranted
invasion of personal privacy, and investigative records. 5 U.S.C. § 552(b).
10
 Other exemptions which result in the Agency making a decision not to release records in response to a
FOIA request are procedural reasons. For example, the requested records could not be located.

Political Appointees’ Role in SSA’s FOIA Requests                                                             2
have assisted in processing FOIA requests in the past; however, for the past several
years the FOIA workload has not warranted assistance from the DDSO. Both DERO
and DDSO are organizations within SSA’s Office of Operations. The Deputy
Commissioner for Operations and subordinate management officials over DERO and
DDSO are career positions.

OPD

OPD processes the most complex FOIA requests SSA receives, as well as all Agency
appeals. OPD analysts thoroughly research each request for various reasons. In many
instances, the material being requested may be voluminous or an issue may be
complex and necessitate research and consultation with other SSA components.
Before responding to these requests, OPD must often request materials from other SSA
components and, in some cases, obtain a legal review. In FY 2009, OPD processed
approximately 10 percent of all FOIA requests.

DERO

DERO primarily processes requests for copies of the Social Security number (SSN)
applications and Numident 11 records of deceased individuals and requests for full SSN
records. In FY 2009, DERO processed approximately 90 percent of all FOIA requests.

eFOIA System

In 1996, Congress amended FOIA 12 to provide for public access to electronic
information. In 2006, OPD sponsored the implementation of the eFOIA system to
provide an automated means for OPD and DERO to process and track FOIA requests.

All FOIA requests are captured in the eFOIA system. EFOIA is an Internet-based
application that enables users to request Social Security records through the SSA
Website. Paper requests, such as mail, hardcopies of faxes, and email are scanned
into eFOIA, whereas requests submitted through the Internet go directly into eFOIA. As
soon as a request is entered into the system, or a person submits an online request,
eFOIA generates a notification or acknowledgment letter. This letter confirms receipt of
a request, provides a reference number specifically assigned to a requester’s case, and
provides contact information for status inquires.

There are two avenues to request records through eFOIA.

      •   DERO Request - Customers can request a copy of a deceased individual’s
          original application for a Social Security card (SS-5), or a copy of a deceased
          individual’s computer extract or Numident record of the original application for a
          Social Security card.
11
   The Numident, an electronic component of SSA’s record systems, provides numberholder identifying
information, such as name, date of birth, date of death, mother's maiden name, etc.
12
     Pub. L. No. 104-231. Electronic Freedom of Information Act (EFOIA) Amendments of 1996.

Political Appointees’ Role in SSA’s FOIA Requests                                                     3
      •   OPD Request - Customers can submit FOIA requests for all other Social Security
          records.

FOIA Requests Through Political Filter

A recent news report 13 alleged that the Department of Homeland Security detoured
hundreds of FOIA requests for Federal records to senior political advisers for highly
unusual scrutiny, probing for information about the requesters, and delaying disclosures
deemed too politically sensitive. As a result, the Ranking Member of the Senate
Committee on Finance and the House Committee on Oversight and Government
Reform, in an August 23, 2010 letter, requested that the SSA Office of the Inspector
General (OIG) conduct an inquiry to determine whether SSA is also engaged in political
filtering of information requests. As of September 17, 2010, there were 10 political
appointees at SSA. See Appendix C for the list of SSA Political Appointees.

To meet this request, we interviewed individuals in OPD and DERO to gain an
understanding of SSA’s FOIA request process. We also interviewed FOIA Analysts and
Coordinators to determine the extent to which political appointees were involved in
processing FOIA requests. Furthermore, we reviewed completed requests that were
either granted or denied and requests that were pending completion as of
August 31, 2010. See Appendix B for details of our scope, methodology, and sample
results.




13
     Ted Bridis, Homeland Security Info Request through Political Filter, Associated Press, July 22, 2010.

Political Appointees’ Role in SSA’s FOIA Requests                                                            4
                                                           Results of Review
We determined that SSA political appointees were sometimes made aware of or
reviewed information requests; however, we found no evidence of FOIA information
requests being detoured, unusually scrutinized, delayed, or hindered by SSA political
appointees. Our results are based on (1) understanding SSA’s FOIA process,
(2) interviewing OPD analysts and FOIA coordinators, and (3) reviewing pending FOIA
requests.

SSA FOIA Process

We interviewed OPD and DERO executive staff to gain an understanding of the FOIA
request process. Specifically, we inquired as to how FOIA requests are received,
processed, and completed. Furthermore, we inquired to what extent political
appointees played a role in the process.

Based on our interviews, we determined there are two avenues to file a request through
the eFOIA Internet application. DERO handles requests for a deceased individual’s
Social Security record, and OPD handles all other requests for Social Security records.
SSA devised this 2-track process to allow faster processing of record requests for
deceased individuals.

FOIA requests are received through eFOIA, mail, hardcopies of faxes, and email
requests. Once received, OPD or DERO reviews the request and determines whether
the information can be given to the requester. The requester is then notified whether
the request has been granted or denied. During these interviews, OIG was informed
that it is possible that political appointees were made aware of FOIA requests but did
not have a role in making a decision to grant or deny the information.

Interviewing OPD Analysts and FOIA Coordinators

There are 23 FOIA Analysts in OPD. We interviewed 22 of 23 OPD analysts. These
Analysts work with the 38 FOIA Coordinators. 14 Each Associate Commissioner,
Regional Commissioner, and Program Service Center (PSC) Director has designated a
FOIA Coordinator to serve as the focal point for FOIA activities under his/her
jurisdiction. Therefore, we interviewed 9 of 38 FOIA Coordinators to gain an
understanding of their responsibilities. Specifically, we inquired about the process of

14
   FOIA Coordinators serve as the focal point for FOIA activities under his/her jurisdiction. FOIA
Coordinators’ responsibilities include (1) providing technical guidance to staff on FOIA matters and to
serve as liaison with the FOIA Officers on disclosure policy matters; (2) coordinating the handling of FOIA
requests, searching for requested documents and providing them to OPD, and identifying concerns about
disclosure; (3) maintaining or collecting data for SSA’s Annual Report to the Attorney General on FOIA
activity; (4) coordinating the development and implementation of procedures for maintaining records of
FOIA requests; and (5) coordinating training activities on FOIA matters. The nine FOIA Coordinators we
interviewed are located in SSA components where political appointees are assigned. The remaining
29 did not work in components that had a political appointee.

Political Appointees’ Role in SSA’s FOIA Requests                                                         5
compiling the requested information; whether political appointees are notified of
information requests; and to what extent, if any, they play a role in the decision to grant
FOIA requests. In addition, we reviewed FOIA requests recently completed by the
analysts we interviewed. Specifically, we reviewed 76 FOIA requests—37 approved
requests and 39 denied requests.

Based on these interviews, we found that all OPD requests in eFOIA are determined to
be either fast track, simple, or complex requests. Fast track requests 15 can be worked
immediately without assignment to an analyst. Simple requests are assigned to an
analyst by a supervisor but are focused on a narrow request, such as an application for
an SSN. Complex requests 16 require further development to determine the feasibility of
providing the requested data. The analyst will work with a FOIA coordinator in the
appropriate SSA component. Once the FOIA coordinator gathers the necessary
information, it is forwarded to the analyst. The analyst reviews the compiled
information, sends the request for approval by the Executive and Deputy Executive
Directors of OPD and, when legal review is needed, to the Office of General Law.
Whether approved or denied, the analyst makes a determination and prepares a
response to the requestor.

We determined that OPD analysts and FOIA coordinators were not aware of any
political appointee’s involvement in the decision of whether to release a FOIA request.

Reviewing Pending FOIA Requests

To determine whether there was evidence from which we could identify instances where
political appointees may have hindered the processing of information requests, we
reviewed a selection of pending FOIA requests older than 20 days to determine the
reason for their pending status. We reviewed FOIA requests from 21 to 364 days old.
In total, we reviewed 41 pending FOIA requests that consisted of 11 appeals and
30 Fast Track/Simple/Complex requests (10 requests that were 21 to 89 days old and
20 that were 90 to 364 days old). Table 1 shows a breakdown of pending requests:


        Table 1 - Aging of Pending Requests as of August 31, 2010
                                                                                            Total
Days Pending                           21-59      60-89       90-179       180-364        Requests
Appeals                                    8          1               2          0                 11
Fast Track/Simple/Complex                166         49              18          2                235
Total Pending Requests
Greater Than 20 Days                      174          50            20            2              246


15
   Examples of fast track requests include address (whereabouts), claims file (deceased), death
information, genealogical information, and information in claim file for living person.
16
 Examples of complex requests include appeal council working papers, appeals, congress (Senator or
Member of the House), contract information, national organizations, and personnel documents.

Political Appointees’ Role in SSA’s FOIA Requests                                                    6
Based on our review of the pending FOIA requests, we determined the following
reasons that requests were not completed within the 20-day timeframe.

   •   Ascertaining what was requested.
   •   Complexity of the request.
   •   Voluminous amounts of data to be retrieved.

Based on our review of the pending requests, we determined the requests were not
older than 20 days due to political appointees hindering the processing of information
requests.




Political Appointees’ Role in SSA’s FOIA Requests                                        7
                                                               Conclusion
We determined that SSA’s political appointees were sometimes made aware of or
reviewed information requests; however, we found no evidence of FOIA information
requests being detoured, unusually scrutinized, delayed, or hindered by the Agency’s
political appointees.




Political Appointees’ Role in SSA’s FOIA Requests                                      8
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – SSA Political Appointees




Political Appointees’ Role in SSA’s FOIA Requests
                                                                       Appendix A

Acronyms
    C.F.R.              Code of Federal Regulations

    DDSO                Division of Direct Service Operations

    DERO                Division of Earnings Records Operations

    eFOIA               Electronic Freedom of Information Act System

    FOIA                Freedom of Information Act

    FY                  Fiscal Year

    OGC                 Office of the General Counsel

    OIG                 Office of the Inspector General

    OPD                 Office of Privacy and Disclosure

    Pub. L. No.         Public Law Number

    SSA                 Social Security Administration

    SSN                 Social Security Number

    U.S.C.              United States Code




Political Appointees’ Role in SSA’s FOIA Requests
                                                                      Appendix B

Scope and Methodology
On August 23, 2010, the Ranking Members of the Senate Committee on Finance and
the House Committee on Oversight and Government Reform requested that we conduct
an inquiry to determine whether, and if so, the extent to which political appointees are
made aware of information requests and have a role in request reviews or decision-
making. To complete our objective, we:

•   Reviewed Federal laws, regulations, and the Social Security Administration‘s (SSA)
    policies and procedures related to Freedom of Information Act (FOIA) requests.

•   Interviewed personnel in the Office of Privacy and Disclosure (OPD), Division of
    Earnings Records Operations (DERO), and Office of Public Inquiry to gain an
    understanding of the FOIA request process.

•   Identified SSA’s Political Appointees.

•   Identified the FOIA Coordinators in each SSA component that had a political
    appointee. Interviewed these FOIA Coordinators to ascertain to what extent political
    appointees were involved in responding to information requests.

•   Reviewed 76 completed FOIA requests (37 granted and 39 denied) from the file
    cabinets of OPD analysts to determine whether political appointees were involved in
    the review or decision-making process.

•   Reviewed an aging of OPD FOIA requests that are pending. We identified the FOIA
    requests that were more than 20 days old to:

          Determine why the request was not completed within 20 days.
          Determine whether the 20-day requirement was exceeded because of
           political appointees.
          Review 100 percent of Fast Track/Simple/Complex requests that were 90 to
           364 days old.
          Review a sample of Fast Track/Simple/Complex requests that were 21 to
           89 days old.
          Review 100 percent of appeal requests.




Political Appointees’ Role in SSA’s FOIA Requests                                      B-1
•   Reviewed a sample of 41 pending OPD FOIA requests to determine whether
    involvement of political appointees caused the request to exceed 20 days.
    Specifically, we:

       Reviewed all Fast Track/Simple/Complex OPD FOIA requests that were 90 to
        364 days old. There were 20 of these requests.
       Randomly sampled pending FOIA Fast Track/Simple/Complex requests that
        were 21 to 89 days old. The sampling population for this group was 215 pending
        requests. We randomly sampled 10 from this population.
       Reviewed all appeal requests that were 21 to 179 days old. There were 11 of
        these requests.

•   Provided SSA a draft of this report for review and addressed all technical comments
    provided.

We determined that the data used in this review were sufficiently reliable given the audit
objective and intended use of the data. The entity responsible for FOIA is under the
Office of the General Counsel, Office of Privacy and Disclosure, and the Office of
Central Operations, Office of Earnings Operations, Division of Earnings Record
Operations. Our field work was conducted at SSA Headquarters in August and
September 2010.

We conducted this review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Political Appointees’ Role in SSA’s FOIA Requests                                      B-2
                                                                         Appendix C

SSA Political Appointees
Below is a list of political appointees at the Social Security Administration (SSA).

      Political Appointee Title                                 SSA Office
Commissioner of Social Security                 Office of the Commissioner
Inspector General                               Office of the Inspector General
Chief Information Officer                       Office of the Chief Information Officer
General Counsel                                 Office of the General Counsel
Deputy Commissioner for Communications Office of Communications
Associate Chief Information Officer for         Office of the Chief Information Officer
Vision and Strategy
Associate Commissioner for Retirement           Office of Retirement and Disability Policy
Policy
Deputy Commissioner for Legislation and         Office of Legislation and Congressional
Congressional Affairs                           Affairs
Associate Commissioner for External             Office of Communications
Affairs
Senior Advisor to the Deputy                    Office of Legislation and Congressional
Commissioner for Legislation and                Affairs
Congressional Affairs

In 1994, a Social Security Advisory Board was created. The law provided that the
Advisory Board be bipartisan with members who were appointed by the President,
Speaker of the House, and President pro tempore of the Senate. This Board advises
the Commissioner of Social Security on policies related to the Old-Age, Survivors and
Disability Insurance and Supplemental Security Income programs. This above list of
political appointees does not include the six members of SSA’s Advisory Board. This is
because the Advisory Board functions as a separate entity whose Freedom of
Information Act (FOIA) responsibilities are mutually exclusive of SSA’s FOIA process.




Political Appointees’ Role in SSA’s FOIA Requests
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
